                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11    Case Number: A08080043                                                                    Page 1 of 1



                    A proactive review by NSF OIG focused on plagiarism in SBIRs identified alleged
            plagiarism within a proposal submitted by the subjects.' The case was opened for Administrative
            Investigation.

                   Analysis indicates that most of the similar text is general information regarding the
            technology used in the proposed research. The remaining questionable text is de minimus.

                    Therefore, OIG concludes that the allegation of plagiarism is insufficiently substantive to
            fully investigate.

                      Accordingly, this case is closed.




I11

  NSF OIG Form 2 (1 1/02)
